No. ___20-830_________
IN THE
SUPREME COURT OF THE UNITED STATES
STATE OF WASHINGTON – PETITIONER
VS.
SAID OMER ALI - RESPONDENT
PROOF OF SERVICE
I, Zina Wyman, do swear or declare that on this date, March 16, 2021, as required
by Supreme Court Rule 29, I have served the enclosed Letter and Attachment on
supplemental authority on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the
above document in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as follows:
Daniel T. Satterber, Amy R. Meckling, and James M. Whisman
516 3rd Avenue W 554
Seattle, WA 98104
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 16th, 2021.

Zina Wyman, Senior Appellate Paralegal
For Attorney Corey Evan Parker
On behalf of respondent Said Omer Ali

